January 20, 2009

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Management Advisory – Fiscal Year 2008 Postal Service Financial
         Statement Audits – Control Issues (Report Number FT-MA-09-002)

The purpose of this report is to present control issues identified during our fiscal year
(FY) 2008 financial statement audit work that were not material in relation to the
financial statements (Project Number 08BM001FT004). Although we did not include
these issues in our overall financial statement audit reports, we are presenting them to
management to further enhance the Postal Service’s control environment and ongoing
Sarbanes-Oxley Act (SOX) compliance efforts.1

Specifically, we identified the following.

•   Service Level Agreement (SLA). Accounting Services did not post the FY 2008
    SLA and accompanying performance metrics in a timely manner and did not
    incorporate important performance measures included in the FY 2007 SLA.
    Specifically, the FY 2008 SLA and metrics were posted in the second quarter2 and
    did not cover stamp stock accountability and Accounting Help Desk call answer time.
    Measures such as these support the annual performance plan by linking them with
    ongoing operations. Postal Service procedures require timely update and posting of
    the current fiscal year SLA and metrics to ensure critical performance
    measurements are understood and visible at the local level.3 Without timely
    communication of performance measures and weekly metrics for key activities,
    Accounting Services could not fully determine the effectiveness of its internal
    customer service.

•   Contracting Officer Delegation of Authority. Personnel at Facilities Headquarters
    and at the Eastern and Western Facilities Service Offices (FSO) were unable to
    locate delegation of authority letters for two contracting officers who approved and

1
  The U.S. Congress enacted SOX legislation in calendar year 2002 to strengthen public confidence in the accuracy
and reliability of financial reporting. The Postal Accountability and Enhancement Act of 2006 mandates the Postal
Service comply with Section 404 of SOX, which requires management to state its responsibility for establishing and
maintaining an adequate internal control structure and make an assertion on the effectiveness of the internal control
structure over financial reporting.
2
  We reported this same issue for FYs 2005 and 2006 in our audit report Service Level Agreements (Report Number
FT-AR-07-001, dated November 2, 2006).
3
  Accounting Services and Area Accounting Manager Process for Service Level Agreements document prepared by
Accounting Center Support, dated October 3, 2006.
Fiscal Year 2008 Postal Service Financial Statement Audits –                                 FT-MA-09-002
 Control Issues


    administered leases. Postal Service policy4 permits the Vice President, Facilities, to
    delegate, in writing, all authorities. Under this process, the individual receives a
    written letter of delegation with a Contracting Officer Certificate of Appointment
    signed by the Vice President. Management at these offices was unable to locate the
    delegation of authority letters or other supporting documentation. As a result, the
    leases these individuals signed could be invalid. These were the only two
    exceptions from our sample of 75 leases reviewed. Management advised they
    reviewed their files and all real estate specialists now have written letters of
    delegation on file.5

•   Project Financial System (PFS) Segregation of Duties. In March 2008, a
    contracting officer in the Southeast FSO created and later approved the same PFS
    project payment for $244,046. This occurred because an automated application
    control in the PFS was not designed correctly and, contrary to Postal Service policy,6
    allowed the same person to both create and approve a payment. When proper
    segregation of duties does not exist, the Postal Service increases its risk of
    unauthorized or fraudulent payments. As a result of our audit, management
    corrected the programming error in July 2008. We will report $244,046 of monetary
    impact, unrecoverable unsupported questioned costs,7 in our Semiannual Report to
    Congress.

•   FY 2005 Xxxxx Xxxxxx Terminal Dues Account. The Postal Service did not
    correctly bill Xxxxx Xxxxxx for FY 2005 terminal dues.8 This occurred because an
    International Accounting Branch clerk made several incorrect entries in the
    Settlement Management System (SMS). As a result, Xxxxx Xxxxxx underpaid the
    Postal Service by $53,475 for the period. When brought to the clerk’s attention, she
    immediately took action to verify the amounts and then added the unbilled amount
    back into SMS for inclusion in the next billing statement. We will report $53,475 of
    monetary impact, recoverable revenue loss,9 in our Semiannual Report to Congress.

•   Miscellaneous Receipt Procedures. Some Xxx Xxxxx Accounting Service Center
    (ASC) personnel who were assigned mailroom responsibilities mailed checks to the
    Eagan ASC without using Postal Service Form 1904, Batch Ticket for Remittance
    Received, or did not use a check receipt log as required by ASC accounting

4
  Implementing RE-1 in Postal Real Estate Actions, Chapter 2 - Contracting Authority, dated June 2008, with
revisions through November 2008.
5
  These two contracting officers no longer work for the Postal Service, so delegation of authority letters were not
created for them.
6
  A letter to Facilities managers, dated May 31, 2005, from the Vice President, Facilities, requires all contract
transactions in excess of $100,000 to be prepared by a person other than the contracting officer who will be
executing the contract transaction. Contract transactions include contracts, modifications, work orders, and
terminations.
7
  An unsupported questioned cost is an unrecoverable cost that is unnecessary, unreasonable, or an alleged violation
of law, regulation, etcetera. This cost is also not supported by adequate documentation.
8
  Terminal dues refers to the fee the destination Foreign Postal Administration (FPA) charges the originating FPA for
delivery from the destination FPA's terminal to the addressee.
9
  Recoverable revenue loss is revenue that can be collected for goods delivered or services rendered.




                                                         2
Fiscal Year 2008 Postal Service Financial Statement Audits –                               FT-MA-09-002
 Control Issues


     guidelines and local written procedures. In addition, written procedures for a portion
     of the mailroom operation regarding cash receipt reconciliations did not exist. While
     ASC10 guidelines and best practices11 emphasize the importance of performing
     reconciliations and documenting reconciliation procedures, ASC personnel did not
     understand the underlying reason for the procedures or the importance of
     reconciliation practices. When ASC employees do not follow procedures, including
     performing frequent reconciliations of cash receipts, the Postal Service’s risk of theft
     or misuse of resources increases. Also, evidence of reconciliation is critical to
     providing reasonable assurance that adequate funds are available to meet payment
     obligations and excess funds are properly invested. Our subsequent follow-up with
     ASC personnel showed that the cash receipts log is being maintained and
     reconciliations are performed. Additionally, at the time of this report, St. Louis ASC
     personnel were in the process of developing desk procedures for those areas of the
     ASC mailroom that did not previously have them.

•    Field Payroll Adjustment Documentation. Management at an Oakland, CA,
     facility could not provide supporting documentation for a payroll adjustment
     processed for pay period 2 in FY 2008, as required by Postal Service procedures.12
     The field supervisor could not explain why he did not retain the supporting
     documentation. Properly documenting and retaining payroll adjusting activity helps
     management achieve an internal control structure that serves as the first line of
     defense in safeguarding assets and preventing and detecting errors and fraud. As a
     result of our inquiries, management provided a copy of the corresponding AdjustPay
     system screen print and certified in writing that it was accurate.

As stated previously, we are providing this information to help Postal Service efforts to
enhance the control environment and comply with certain provisions of SOX.
Consequently, we are not making any recommendations at this time.

Management’s Comments

Management agreed with five of the six issues and implemented actions or processes
to address them. They did not agree that this report should address SLAs, as they
believe they are performance measures, not controls. They added that it was far more
important to agree with their customers on how to measure service performance rather
than to have the SLA in place on the first day of FY 2008. Management did not have
any issue with the monetary impact. See the appendix for management’s comments, in
their entirety.



10
   Handbook F-20A, Accounting Service Center Accounting Guidelines, dated May 1999, with updates through
October 10, 2001.
11
   U.S. Government Accountability Office, Standards for Internal Control in the Federal Government, AIMD-00-21.3.1,
dated November 1999.
12
   AdjustPay Requirements Document, page 2, revised May 1, 2008.




                                                         3
Fiscal Year 2008 Postal Service Financial Statement Audits –            FT-MA-09-002
 Control Issues


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the issues presented in the report. We will report $297,521 of
monetary impact in our Semiannual Report to Congress. While we agree the SLAs are
performance measures, we continue to believe they serve as controls at an entity level
to ensure Accounting Services provides an effective level of service to its customers.
However, we do not plan to elevate the issue, but will continue to monitor this as part of
our ongoing financial statement audits.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachment

cc: H. Glen Walker
    Vincent H. DeVito, Jr.
    Jo Ann E. Mitchell
    Stephen J. Nickerson
    Edward L. Brown
    Katherine S. Banks




                                                     4
Fiscal Year 2008 Postal Service Financial Statement Audits –   FT-MA-09-002
 Control Issues


                         APPENDIX: MANAGEMENT’S COMMENTS




                                                     5
Fiscal Year 2008 Postal Service Financial Statement Audits –   FT-MA-09-002
 Control Issues




                                                     6
